<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2014 BUDGET: ADMINISTRATION PRIORITIES FOR THE U.S. ARMY CORPS OF ENGINEERS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                THE PRESIDENT'S FISCAL YEAR 2014 BUDGET:
                   ADMINISTRATION PRIORITIES FOR THE
                      U.S. ARMY CORPS OF ENGINEERS

=======================================================================

                                (113-12)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                 ______
	                   
	              U.S. GOVERNMENT PRINTING OFFICE 
	
80-576 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
        DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
VACANCY

                                  (ii)

  






            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
GARY G. MILLER, California           DONNA F. EDWARDS, Maryland
SHELLEY MOORE CAPITO, West Virginia  JOHN GARAMENDI, California
CANDICE S. MILLER, Michigan          ANN KIRKPATRICK, Arizona
ERIC A. ``RICK'' CRAWFORD,           LOIS FRANKEL, Florida
Arkansas,                            ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
RICHARD L. HANNA, New York           EDDIE BERNICE JOHNSON, Texas
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
JEFF DENHAM, California              ELIZABETH H. ESTY, Connecticut
REID J. RIBBLE, Wisconsin            MICHAEL H. MICHAUD, Maine
THOMAS MASSIE, Kentucky              RICHARD M. NOLAN, Minnesota
STEVE DAINES, Montana                JANICE HAHN, California
TOM RICE, South Carolina             SEAN PATRICK MALONEY, New York
MARKWAYNE MULLIN, Oklahoma           NICK J. RAHALL, II, West Virginia
MARK MEADOWS, North Carolina           (Ex Officio)
RODNEY DAVIS, Illinois
VACANCY
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)














                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Hon. Jo-Ellen Darcy, Assistant Secretary of the Army (Civil 
  Works).........................................................     7
Lieutenant General Thomas P. Bostick, Chief of Engineers, U.S. 
  Army Corps of Engineers........................................     7

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Jo-Ellen Darcy..............................................    33
Lieutenant General Thomas P. Bostick.............................    41

                       SUBMISSION FOR THE RECORD

Questions from Hon. Thomas Massie, a Representative in Congress 
  from the State of Kentucky, for Hon. Jo-Ellen Darcy, Assistant 
  Secretary of the Army (Civil Works)............................    40

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                    THE PRESIDENT'S FISCAL YEAR 2014
                   BUDGET: ADMINISTRATION PRIORITIES
                  FOR THE U.S. ARMY CORPS OF ENGINEERS

                              ----------                              


                       WEDNESDAY, APRIL 24, 2013

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m. in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. Good afternoon. At this time, the Subcommittee 
on Water Resources and Environment will come to order.
    Today we have a hearing on the administration's budget. We 
have the Honorable Secretary Darcy, Army Civil Works, and 
General Bostick, head of the Army Corps of Engineers.
    I will start here with an opening statement and then I will 
turn it over to my ranking member.
    The President's fiscal year 2014 budget is the 
administration's priorities for the U.S. Army Corps of 
Engineers.
    I am a strong supporter of the efforts by Congress to 
control Federal spending. However, I feel like this is a 
belated Groundhog Day for most of us on the subcommittee. Many 
of the Army Corps of Engineers activities that we are examining 
today are true investments in America because they provide jobs 
and economic return.
    For nearly two centuries, the Civil Works mission of the 
Corps has contributed to the economic vitality of the Nation 
and improved our quality of life.
    Once again, like Groundhog Day, this administration has 
misprioritized the projects and programs of the Army Corps of 
Engineers. I believe we must be supportive of programs that 
have a proven record of providing economic benefits.
    The fiscal year 2014 budget request by the administration 
for the Corps of Engineers is $4.7 billion. This request is 
almost the exact same as was requested in previous budgets.
    In 2011, we had some of the worst flooding on record in 
this country. In 2012, we were struck by several major natural 
disasters. In either 2013 or 2015, it is likely the expanded 
Panama Canal will become operational.
    Yet the President has learned little by the recent 
experience of Superstorm Sandy, since his budget proposes 
investing only a little over $25 million for construction of 
shore protection projects nationwide.
    In addition, he sends to Congress a budget that has an 
ecosystem restoration construction budget that is four times 
larger than its coastal navigation construction budget.
    The fiscal year 2014 budget is where we expected to find 
the funds to match the administration's rhetoric on initiatives 
like the President's export initiative or the President's ``We 
Can't Wait'' initiative.
    Instead, while the President is proposing $834 million out 
of the Harbor Maintenance Trust Fund for operation and 
maintenance activities in fiscal year 2014, just last year in 
fiscal year 2013, it is estimated the administration collected 
$1.85 billion in harbor maintenance taxes, paid by businesses 
for the purpose of maintaining America's ports.
    This will not keep up with the growing demand on our ports 
to accommodate more and larger ships that will leave the Trust 
Fund with almost $9 billion in IOUs to the Nation's ports at 
the end of the next fiscal year.
    This administration is not the first to shortchange 
America's water transportation system. I find it irresponsible 
for any administration or for Congress itself to not fully 
spend the tax dollars collected for their intended purpose.
    I know we have to find savings, but savings can be found by 
slowing down work on some environmental restoration projects 
until the economy turns around.
    Instead, the President's budget prioritizes these 
activities above navigation. The largest navigation expansion 
in the construction general account is less than $50 million.
    By comparison, the three largest ecosystem project 
expenditures in the construction general account are one 
project for more than $100 million and one project for almost 
$90 million, and one project for more than $70 million.
    Two of these multimillion-dollar ecosystem restoration 
activities are at the behest of other Federal agencies like the 
United States Fish and Wildlife Service and the National Marine 
Fisheries Service.
    While we in Congress understand the Corps of Engineers has 
to comply with the Endangered Species Act and other laws, every 
year the agency has to spend hundreds of millions of dollars on 
so-called environmental compliance activities at the whim of 
other Federal agencies with no end in sight.
    I think the Corps of Engineers needs to know when to say 
no.
    Budgets are about priorities. A priority of any 
administration should be to put the United States at a 
competitive advantage in world markets, but not one single 
coastal navigation project in the President's budget will be 
completed construction in the next fiscal year.
    According to this budget, the coastal navigation system the 
Nation has today, which is the same coastal navigation system 
we had when the President took office, will be enough to keep 
the United States competitive when the Panama Canal expansion 
is complete.
    Many of us in Congress disagree. While the President's 
export initiative and the ``We Can't Wait'' initiative made 
some promises to the public, unfortunately, many of us in 
Congress believe that the President's budget does not deliver 
on these initiatives.
    Like Groundhog Day once again the President's budget over 
promises and over delivers.
    I look forward to the testimony from our two witnesses 
today, and I recognize the ranking member, Mr. Bishop, for any 
statement he might have.
    Mr. Bishop. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing.
    This budget hearing is very timely. We are considering a 
new water bill. We are dealing with issues that are being 
presented to us by stakeholders in a series of roundtables that 
Chairman Gibbs and Chairman Shuster have arranged.
    By the way, let me commend Chairman Shuster and Chairman 
Gibbs for hosting these roundtables. They have been very 
helpful and very informative.
    I have four slides that I just want to show. I think they 
really summarize the challenge that is before us.
    The first slide up, basically, this is a summary of what we 
have heard most frequently from the stakeholders, that the 
project is taking too long, it has been authorized for 
construction, but it is not being built. The other is the 
project is authorized for study but we are not moving it to the 
construction phase.
    We have a $60 billion backlog in authorized but 
unconstructed projects. We need to fully spend down the Harbor 
Maintenance Trust Fund collections for their intended purposes, 
make sure the Fund addresses the needs of all ports, the inland 
waterways.
    The Trust Fund is broken and needs to be fixed, and the 
Olmsted Locks and Dam project is taking all of the money out of 
the Inland Waterways Trust Fund.
    That represents--at the risk of providing you with a 
CliffsNotes version of what has been a really good and 
extensive process--that represents a summary of what we hear 
most often.
    If we can go to the second slide. The second slide shows 
the line moving slightly up and to the right, inflation 
adjusted approps starting with fiscal year 2009. If we took 
fiscal year 2009 and simply adjusted it for inflation, in other 
words, whatever level of activity we had in fiscal year 2009, 
we would be able to continue that level of activity through 
fiscal year 2013 and beyond, simply by adjusting for inflation.
    The line going down to the right is actual enacted 
appropriations that this Congress has enacted.
    As the chairman said, President Obama is not the first 
President to request funding for the Army Corps that is 
inadequate. I would point out that the President's request for 
fiscal year 2014 is higher than any request that President Bush 
put forward for the Army Corps.
    This is a problem, and the Congress, we are the ones that 
make the judgment with respect to what it is we are going to 
enact. We have consistently over those 4 fiscal years following 
fiscal year 2009 provided the Corps with less than what they 
had in fiscal year 2009.
    Let's move to the third. This represents a pictorial 
summary of what would happen if we were to enact into law the 
budget resolution that passed the House of Representatives.
    The first bar is fiscal year 2013 approps. The second bar 
is fiscal year 2014 President's request. The bars following the 
second bar are what the appropriation would be if we were to 
enact the House passed budget resolution as the 302(b) 
allocation level for the Corps.
    You will see that there is approximately a $600 million 
difference in fiscal year 2014 between what the President 
requested and what the House budget resolution would set as 
maximum Corps expenditures, and you will also see that it is 
not until fiscal year 2020 or even fiscal year 2021 that Corps 
expenditures, if we were to follow that, would reach what the 
President has requested in fiscal year 2014.
    I think I just heard Chairman Gibbs say he considers the 
President's request for fiscal year 2014 to be inadequate. I 
certainly consider it to be inadequate.
    If we were to follow the House budget resolution, we would 
not even get to that level until fiscal year 2021.
    The last slide. We have had several proposals made that we 
should, for example, spend down the Harbor Maintenance Trust 
Fund. The blue bar on the left represents the fiscal year 2014 
construction request for Corps accounts.
    If we were to enact the RAMP Act, that is to say fully 
spend down proceeds of the Harbor Maintenance Trust Fund 
without increasing the 302(b) allocation for the Corps, that 
would eat up some $850 million of Corps spending, presumably 
taken out of construction, because I am not quite sure where 
else you would take it from if you did not take it out of 
construction.
    If we were to then enact on top of that the Inland Waterway 
User Board proposal for how to fully fund the needs of the 
inland waterways system, which by the way, are serious needs 
that we can no longer ignore, then we would further erode the 
construction account, and then if we were to Federalize the 
Olmsted project, which is something that has been proposed, in 
other words, take Olmsted out of the Inland Waterways Trust 
Fund, put it fully on the General Fund's budget.
    If we were to do all those things, it would leave us with a 
construction account of around $250 million for the country.
    My point here is that all of these ``solutions,'' and I 
will put the word in quotes, are simply pushing around the 
problem unless we increase the total amount of funding that is 
available, and that is our job. That is the job that all of us 
in the Congress have to do.
    If we think these are important things to do, if we think 
operation and maintenance is important, if we think we have to 
make our ports Panamax ready, if we think it is unacceptable 
that we have locks and dams that have lived beyond their useful 
life span, if we think shore line protection is important, all 
the things we all say to one another, all the things we all do, 
we cannot keep going to the Corps and saying do more with less.
    Every Corps person I have ever asked what do you do with 
less, the response is you do less with less. That is just the 
reality.
    I want to put those numbers out there so we all have them. 
I want to put the implications of these policy choices out 
there so we all have them. I hope that what we can engage in is 
a constructive discussion on how do we prioritize the Corps 
within the larger picture of the General Fund's budget.
    I agree with the chairman, we have needs that we simply 
must address, but we are not going to address them if we keep 
driving down the 302(b) allocation for the Corps.
    With that, Mr. Chairman, I thank you for your indulgence 
and I yield back.
    Mr. Gibbs. At this time, I recognize the chairman of the 
Full Transportation and Infrastructure Committee, Chairman 
Shuster, for any remarks he might have.
    Mr. Shuster. Thank you very much, Chairman Gibbs. Thank you 
for holding this hearing today. It is an important hearing. It 
is always important to hear the priorities and the views of the 
agency that carries out an extremely important role in the 
water resource activities of our Nation.
    General Bostick and Secretary Darcy, thanks for being here 
today.
    You do play an important role when it comes to our water 
infrastructure, and this transportation system we have, as 
everybody knows, is the least expensive and the safest way to 
move cargo throughout our country.
    When operating efficiently, the infrastructure can 
significantly lower the transportation costs, which can go up 
as much as 10 percent of the total cost of a product.
    I look at the cost to ships things around, and I have an 
example that I have been talking about for the last couple of 
months, or the last month, I should say, and it is the cost to 
U.S. soybean growers. To move 1 ton of soybeans from Davenport, 
Iowa, to Shanghai, China, costs in our system $85. When you 
move that same ton of soybeans, same distance, from Brazil, it 
costs $141.
    We have a significant competitive advantage, but when you 
look at what the Brazilians and the Chinese are doing in 
Brazil, they are investing upwards of $26 billion into their 
water infrastructure to be able to better compete against us.
    I think that sends a clear message that if we do not 
properly invest in maintenance and modernization of the most 
efficient means of transportation, we are going to lose that 
economic advantage.
    It is going to cost us jobs. It is going to cost us more to 
buy goods at the stores and markets. It is going to cost us in 
the world economy when the products we manufacture cost them 
more money to get into that world economy.
    This is an important subject. The President's budget, as 
has been pointed out, previous Presidents, Republicans and 
Democrats alike, are proposing to not spend the full amount of 
the ``user fee,'' I call it, that you pay to use the ports of 
this country.
    The Harbor Maintenance Trust Fund has only allocated $834 
million out of $1.8 billion that has been collected. Again, 
this practice continues to grow.
    On the last surface transportation bill, many colleagues on 
my side with my support tried to pass the RAMP Act, to try to 
make sure that money is dedicated to the purpose for which 
those folks are paying into that Fund.
    One thing that was disconcerting is for months/years, we 
have been asking the question exactly where does that money go, 
that other $1 billion.
    Recently, the Senate Appropriations Committee sent a letter 
to the Senate Environment and Public Works Committee. We found 
out that if that money were to go 100 percent to its intended 
purpose, it would require a significant cut at the Department 
of Energy. It is the old Washington shell game of we collect 
here, we are not going to spend it there, then we fund 
something else.
    It is very disconcerting to me and I know the folks that 
operate in those ports and harbors around this country.
    As the chart my colleague from New York showed, that would 
make a significant improvement. If we could spend that money, 
there would be significant improvements to our harbors and 
ports.
    Again, it is bad enough when the Corps puts hurdles up to 
projects, but in many instances, we found the White House and 
OMB are requiring studies and information that they really do 
not need to make informed decisions. They continue to throw 
those hurdles up.
    It is one of the things I have consistently heard in our 
series of roundtables we have had, that the endless studying 
and studying and studying and never actually getting finished 
to accomplish a project is really hurting us. It takes too 
long. It costs too much.
    We were at a roundtable about 2 weeks ago. If I did not 
know who was a Democrat and who was a Republican in the room, I 
would have thought we were all in the same party.
    We all were saying the same thing about the need to reform 
the Corps, look at new innovative ways to make it more 
efficient, and as we move forward, I am dedicated to trying to 
help the Corps improve what it does, look at things like bring 
in the private sector to help, whether it is funding or other 
innovative ideas they may bring to the table.
    Again, I really appreciate Chairman Gibbs and Ranking 
Member Bishop for their hard work on this issue. As we move 
forward in this Congress, again, as I said, I am dedicated to 
passing a water bill that I think is extremely important to the 
economy of the United States.
    Again, thank you very much.
    Mr. Gibbs. Thank you, Chairman. One housekeeping business. 
I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing.
    Any objection?
    [No response.]
    Mr. Gibbs. Hearing no objection, so ordered. At this time, 
I welcome our witnesses. The first witness is the Honorable 
Secretary Darcy, Assistant Secretary of the Army, Civil Works. 
Welcome. The floor is yours.

 TESTIMONY OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE 
 ARMY (CIVIL WORKS); AND LIEUTENANT GENERAL THOMAS P. BOSTICK, 
        CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    Ms. Darcy. Thank you, Congressman. Thank you, Mr. Chairman, 
and distinguished members of the subcommittee. Thank you for 
the opportunity today to present the President's budget for the 
Civil Works Program of the Army Corps of Engineers for fiscal 
year 2014.
    I would like to summarize my statement and ask that my 
complete written statement be included in the record.
    The President's 2014 budget provides $4.826 billion in 
gross discretionary appropriations for the Army Civil Works 
Program, offset by $100 million rescission of unobligated 
carryover from appropriations prior to fiscal year 2013.
    This is $95 million higher than the President's 2013 budget 
for Civil Works.
    The budget also supports the restoration of certain sites 
contaminated as a result of the Nation's early Atomic Weapons 
Development Program, emergency preparedness and training to 
respond to natural disasters, and recreation, environmental 
stewardship and water supply storage at existing projects owned 
or operated by the Corps.
    These investments will contribute to a stronger economy, 
improve reliability of waterborne transportation, reduce flood 
risks to businesses and homes, and support American jobs.
    The budget funds the completion of 3 flood risk management 
projects, 1 navigation project, 1 hydropower project, and 21 
studies and designs.
    The Civil Works budget includes funding for 4 high-
performing construction new starts, 10 new study starts in the 
investigations account, and 1 new activity in the operation and 
maintenance account.
    The budget includes the highest amount ever budgeted for 
use of receipts from the Harbor Maintenance Trust Fund to 
maintain coastal channels and harbors.
    Inland waterway capital and investments in the construction 
account are funded at the maximum amount that is affordable 
within the projected Trust Fund revenue under existing law.
    The administration will continue to work with Congress and 
stakeholders to enact a mechanism to increase revenue for the 
Inland Waterway Trust Fund.
    The 2014 budget provides $392 million for dam and levee 
safety activities, which includes $41 million to continue the 
levee safety initiative.
    The budget provides $75 million for additional measures to 
support navigation on the Mississippi River in the current 
drought, which has been affecting the water levels on the 
river, if it continues into 2014.
    The budget provides continued funding for restoration of 
five of the Nation's significant aquatic ecosystems, the 
California Bay Delta, the Chesapeake Bay, Everglades, the Great 
Lakes, and the gulf coast.
    The Army continues to work to modernize the Civil Works 
Planning Program. Proposed changes are aimed at dramatically 
shortening the time as well as the costs for completion of 
preauthorization studies while retaining the quality of our 
analyses.
    The budget again this year includes $3 million for the 
Veterans Curation Program, which provides vocational 
rehabilitation and innovative training for wounded and disabled 
veterans while achieving historical preservation 
responsibilities for our ecological collections that are 
administered by the Corps of Engineers.
    In summary, the 2014 budget for the Army Corps Civil Works 
is a performance-based budget that supports continued progress 
on important water resources investments that will contribute 
to a stronger economy and continue progress on important water 
resources investments that will yield long-term returns for the 
Nation and its citizens.
    Mr. Chairman and members of the subcommittee, I look 
forward to working with you in support of the President's 
budget, and if I could take a few seconds, Mr. Chairman, I 
would like to recognize the woman who is sitting behind me, who 
probably has the biggest smile on her face.
    She is my Deputy for Management and Budget, Claudia 
Tornblom, she is retiring from Federal service this Friday 
after 34 years.
    This is her last visit to Capitol Hill in that capacity. 
She has been an incredible asset to the Army Civil Works 
Program. I want to thank her for her service.
    Mr. Gibbs. Thank you, Secretary Darcy. Thank you for your 
service and good luck in your retirement.
    At this time I would like to welcome Lieutenant General 
Thomas Bostick. He is the Chief of Engineers at U.S. Army Corps 
of Engineers.
    Welcome, General. The floor is yours.
    General Bostick. Thank you, Chairman Gibbs, members of the 
subcommittee. I am honored to testify before the committee 
today along with the Honorable Jo-Ellen Darcy on the 
President's fiscal year 2014 budget for the Civil Works Program 
of the U.S. Army Corps of Engineers.
    This is my first time to testify before this subcommittee, 
and I look forward to working with each of you.
    I have been in command for nearly a year, and I want to 
touch briefly on the four campaign goals that we set for the 
U.S. Army Corps of Engineers starting last August.
    First, we must support the war fighter with our work in 
areas of operations of the combatant commands and on U.S. 
installations around the world.
    Second, we must transform Civil Works. We do this by 
modernizing our project planning process, enhancing the budget 
development process, and by using a smart infrastructure 
strategy to evaluate our portfolio of water resource projects, 
and finally, by improving our methods of delivery.
    Third, we must reduce disaster risks and continue to 
respond to natural disasters under the national response 
framework, as well as our ongoing efforts with flood risk 
mitigation.
    Fourth, we must prepare for tomorrow, positioning our 
workforce and our processes for future challenges and focusing 
on research and development efforts that will help solve the 
greatest challenges that this Nation and our Army will face.
    In 2012, the Corps responded to several weather related 
events, including Hurricane Sandy, under the national response 
framework in support of FEMA. Drought was a significant 
challenge as we experienced extraordinarily low water on the 
middle Mississippi River. The great men and women of the Corps 
of Engineers worked tirelessly together with our State, local 
and industry partners to ensure that we could deliver on our 
many commitments.
    This country is experiencing even today some challenges as 
we face significant flooding in many parts of the Nation. It is 
through the efforts of our people and our partners at every 
level that we will continue to carry out the projects and 
programs included in the 2014 budget.
    Mr. Chairman, I ask that you and other Members refer to my 
complete written testimony submitted to the committee for the 
specifics on the following areas: the summary of the budget, 
much of which Ms. Darcy outlined earlier.
    The investigation program, our construction program, 
operations and maintenance program, program for planning 
modernization efficiency and effectiveness of Corps operations, 
the value of the Civil Works Program to the Nation's economy, 
research and development, and our support to the national 
defense.
    Thank you, Mr. Chairman, and members of the subcommittee. I 
look forward to your questions.
    Mr. Gibbs. Thank you, General. I will start off with 
questions. Secretary Darcy, on July 19, 2012, the President 
released part of his ``We Can't Wait'' initiative calling for 
the expedited actions at the Ports of New York, New Jersey, 
Charleston, Savannah, Jacksonville and Miami.
    As for the Port of New York and New Jersey project, 
according to the press release from the White House last 
Summer, it states that ``The Corps expects to complete this 
$1.6 billion project in 2014.''
    The President's budget devotes approximately $49 million to 
this project in 2014. The President's budget shows the Corps 
completing five construction projects in 2014, the Port of New 
York and New Jersey is not one of the projects forecasted to be 
completed.
    Can you explain why this project and others in the 
President's ``We Can't Wait'' initiative will not be completed 
in 2014?
    Ms. Darcy. Chairman, I believe the schedule for completion 
has always been 2015. It is part of the ``We Can't Wait'' 
initiative because it is being looked at with a number of other 
Federal agencies, which is one of the requirements for being 
part of that initiative.
    I believe the completion date is 2015.
    Mr. Gibbs. 2015? That is not what the press release said. 
They must have changed it, I guess.
    Ms. Darcy. I believe that we had it budgeted and scheduled 
for 2015. I can go back and check that.
    Mr. Gibbs. I have the release here and it says the Corps 
expects to complete the $1.6 billion project in 2014. For the 
record, I guess.
    Kind of a followup, the Port of Miami is another project 
included in the initiative. The same press release says the 
Corps expects to complete the deepening of the navigation 
channel by late 2012.
    Has the Corps carried out the deepening of the Miami 
channel? We were told the Port would be carrying out the 
project.
    What does the President's fiscal year 2014 budget do for 
the Port of Miami?
    Ms. Darcy. The Port of Miami is in the President's 2014 
budget for an adjustment to the 902 limit.
    The State of Florida, who is our local sponsor and partner 
in this project, is going to be contributing $77 million of 
their own money in contributed funds to help meet the deepening 
of this Port.
    Mr. Gibbs. My understanding is it has been approved on the 
902 issue, but I think the Corps could have moved ahead up to 
the 902 limit, could they not?
    Ms. Darcy. Chairman, we have to have the 902 limit enacted 
before we can enter into a project partnership agreement with a 
local sponsor.
    Mr. Gibbs. Can you also give the committee a status on the 
funding levels of work needed to finish the study of the Port 
of Charleston deepening project?
    Ms. Darcy. I will check the numbers but the Port of 
Charleston again is one of the ``We Can't Wait'' initiatives; 
it has been part of our smart planning or 3<greek-e>3<greek-e>3 
initiatives, where we were trying to get a handle on the 
studies that are out there. The Port of Charleston is in the 
President's budget. I will check for what it is in 2014.
    As part of our smart planning effort, we have reduced 4 
years off the study, and we have also found a way to save $8.2 
million on this study through our smart planning initiative.
    Mr. Gibbs. Also, in the President's budget that is 
concerning to me is he is budgeting $108 million for 
construction of coastal port projects, which is about a quarter 
of what is supposed to be spent on ecosystem restoration 
projects.
    Of the 11 navigation projects funded in the budget, how 
many of these will be completed in 2014? For instance, I see 
the Port of Oakland in the President's budget is for $100,000. 
Will that $100,000 complete the project at the Port of Oakland?
    Can you comment on the massive discrepancy between 
investing on our infrastructure assets $108 million or 25 
percent compared to the ecosystem restoration projects?
    Ms. Darcy. Chairman, if you look at the budget overall and 
if you look at the breakdown, about 39 percent of the 
President's 2014 budget is going to be for navigation, another 
33 percent will be for flood risk reduction, and the remaining 
30 percent is a combination of ecosystem restoration and 
regulatory programs.
    Mr. Gibbs. Excuse me. You are referring to the overall 
budget. We are just talking about the general construction 
budget. Is that correct?
    Ms. Darcy. That was your question, on the construction 
budget. We have budgeted one navigation project to completion 
in the 2014 budget. I would have to ask staff which one that 
is.
    I am sorry, the rest of your question was about the 
comparison between ecosystem and navigation?
    Mr. Gibbs. Yes.
    Ms. Darcy. In putting the budget together, we look at all 
of the missions within the Corps of Engineers and priorities 
and the value to the Nation. Within ecosystem restoration, we 
have several projects that not only will help restore 
ecosystems but can also be job producers.
    Mr. Gibbs. When you look at funding priorities, first, 
invest in construction on tangible assets, whether it be locks 
and dams or ports versus eco restoration.
    Do you look at the economic benefits to compare what is the 
smartest investment?
    Ms. Darcy. We do performance-based budgeting. We look at 
what the return will be on the Federal investment on each of 
those projects.
    Within the ecosystem restoration program, there is not the 
same comparable cost-benefit analysis as is done for other 
kinds of projects because of the value----
    Mr. Gibbs. I am out of time. Quickly, do you also factor in 
tangible assets, the age and possible failure, especially in 
the inland waterway system? Maybe we should be investing more 
there. The average age is 60-plus years, and we have likely, by 
the Corps' own admission, failures that could be catastrophic.
    Ms. Darcy. Within each of those accounts, Chairman, we do 
that kind of analysis, what is the most urgent need, especially 
as it relates to safety and the economy.
    Mr. Gibbs. Thank you. Representative Bishop?
    Mr. Bishop. Thank you very much, Mr. Chairman. I thank both 
of our panelists for their testimony.
    I want to stay on the issue of the Harbor Maintenance Trust 
Fund and to some extent the Inland Waterways Trust Fund.
    The expected collections in the Harbor Maintenance Trust 
Fund this year are $1.758 billion. The President proposes 
transferring $890 million of that to the operation and 
maintenance account.
    This is roughly the historical average, a little over 50 
percent of proceeds become expenditures. The last budget that 
President Bush submitted was a little over 50 percent, although 
I will point out that the last budget that President Clinton 
submitted spent down 96 percent of the annual proceeds, or at 
least requested that 96 percent be spent down.
    If we were to pass the RAMP Act, that does not give you 
$868 million more to spend unless we increase the overall 
budget of the Corps. Is that correct?
    Ms. Darcy. Yes, Congressman.
    Mr. Bishop. If we were to pass the RAMP Act thereby 
mandating that the Corps spend $868 million more than it is 
contemplating spending in O&M, unless we increase the Corp 
budget, you will take that from some other place in the Corps?
    Ms. Darcy. Yes, we would have to.
    Mr. Bishop. The chart that I put up presumed that you would 
take it out of construction since that is the next largest 
account. Is that a reasonable presumption?
    Ms. Darcy. Yes.
    Mr. Bishop. What we are dealing with here is we are 
proposing a solution that not only does not solve the problem, 
it exacerbates the problem. Am I right about that?
    Ms. Darcy. Yes.
    Mr. Bishop. Thank you. The same can be said if we were to 
Federalize Olmsted or if we were to have more General Fund 
expense come out of the Inland Waterways Trust Fund?
    Ms. Darcy. Yes.
    Mr. Bishop. The answer is that either we increase the Corps 
budget or we cannibalize other elements of the energy and water 
appropriations bill by we either increase the 302(b) allocation 
for the Corps or we increase the 302(b) allocation for the 
energy and water budget. Right?
    Ms. Darcy. Correct.
    Mr. Bishop. At least we all understand the problem. Again, 
I will say to my colleagues, we have to figure out how 
important it is to us to spend the Harbor Maintenance Trust 
Fund proceeds for Harbor Maintenance Trust Fund related 
activities. Right? That is our job, not yours.
    Ms. Darcy. Correct.
    Mr. Bishop. Let me move to another subject. It is my 
understanding that there are approximately 30 projects, and 
please correct me if I am wrong, for which known costs are 
either approaching or have exceeded their 902 limit. Is that 
about right?
    Ms. Darcy. I think it is about right; yes.
    Mr. Bishop. Can you (a) give us a brief explanation of what 
is happening that caused this 30 projects to exceed their 
originally budgeted expectation?
    Ms. Darcy. There are several reasons, also depending upon 
the projects. Sometimes it is because it is an older project 
and over time, the prices have escalated from the originally 
authorized project authorization. As you know, 902(b) means the 
authorized project costs have escalated to more than 20 percent 
of the originally authorized costs, and 902(b) requires us to 
come back to Congress and ask for an increase in that 
authorization.
    Thirty is too many. We need to be taking a look at our own 
way of doing our cost estimating. We have established a center 
of expertise in one of our districts out in Walla Walla, 
Washington, and they are going to be looking at all cost 
estimates for our projects in the future.
    We are also committed to notifying Congress well in advance 
of knowing we have a 902(b) allocation problem because it would 
need to be authorized and take an act of Congress to increase 
that authorization.
    We are also going to be doing what we call agency technical 
reviews earlier on in our 902(b) calculations. We are looking 
throughout the agency, both at the district level all the way 
up to headquarters, as to what the implication is going to be 
of this cost increase.
    Mr. Bishop. Secretary Darcy, I am going to have to cut you 
off because we have 4 minutes left in a vote.
    I want to just ask--are we coming back.
    Mr. Gibbs. We are going to come back. Go ahead and ask.
    Mr. Bishop. Real quick. The existence of the earmark ban 
complicates the process by which the Corps would return to us 
to ask for an increase in funding for these 30 some projects. 
Am I right about that?
    If Congress were to authorize them, additional spending, 
that would be considered an earmark. Is that correct?
    Ms. Darcy. That is correct.
    Mr. Bishop. We would be left in the unenviable position of 
having spent a considerable amount of Federal money to 
undertake a project but because of the earmark ban, which was 
designed allegedly to save money, we would wind up wasting 
money because we would not be able to complete the projects 
that had previously been authorized. Am I right about that?
    Ms. Darcy. That is correct.
    Mr. Bishop. Thank you. I have no more questions, Mr. 
Chairman.
    Mr. Gibbs. Votes have been called. We have three votes. The 
first vote, there is 3\1/2\ minutes still to go, 19 people have 
not voted yet. It will be about 3:00. There are two more 5-
minute votes.
    We can try to reconvene here about 3:15 or 3:20, if you can 
indulge us. Thank you.
    We stand in recess.
    [Recess.]
    Mr. Gibbs. We will call the subcommittee hearing back to 
order on the President's priorities for the Corps of Engineers 
budget.
    We will probably have more Members straggling in here from 
the vote, but we will go to Mr. Hanna for questions he may 
have.
    Mr. Hanna. Thank you, Chairman. Thank you both. I want to 
preface this by saying that I have had a very good experience 
with Commander Bale in Buffalo, while not productive, I 
regarded him as a honest player in this rather complicated 
process.
    I would like to talk about something that is not directly 
related to the issue at hand, the budget. I would like to raise 
an issue that I have. I represent Marcy, New York, and in my 
district, the Corps placed special conditions and subsequently 
denied a section 404 permit for Mohawk Valley Economic 
Development Growth Enterprises, also known as EDGE, to 
construct a pad for a potential nano technology company, a 
multibillion-dollar company, to come in and build a 
manufacturing plant on several acres of marginal wetlands.
    The Corps denied the permit primarily on the grounds that 
the applicant could not specify with precise detail what the 
end footprint of the plant would be, although the applicant 
offered numerous, numerous times to mitigate those marginal 
wetlands, a few acres, four or five acres, some place else in 
the community, offered to do anything possible to get this 
permit for this potential nano technology plant in a very 
starved community in upstate New York, where I live, very 
economically deprived and in trouble.
    Quite naturally, this is a Catch 22, because without a 
shovel ready pad, the applicant could not compete with foreign 
companies to attract a manufacturer. Without a manufacturer in 
hand, the applicant could not give the details for the 
specifications of the final plant design to the Corps of 
Engineers.
    What we seem to have and what I am told is spreading to 
other districts, I have talked to other congressmen, is the 
Corps is halting economic development and holding up good 
paying jobs and growth and opportunity and transfer of jobs 
back into this country over a brand new, new, I emphasize 
``new'' interpretation of the Clean Water Act.
    You may be aware that Chairman Gibbs and this subcommittee 
has taken an interest in this case, and on April 12, requested 
that the Corps provide us with a complete administrative record 
for this project, as well as all communications between the 
Corps and the EPA on this matter.
    I trust the Corps will cooperate in this regard.
    The main question is section 404 does not require that the 
Corps cannot give a permit for speculative purposes, for growth 
purposes, for potential customers that we know are there and 
want to build, it does not require that they deny a permit 
without an end user or defined end user.
    The community was willing to and offered to define a 
maximum footprint to allow the Corps to analyze this with 
regard to the few acres of what I think are widely accepted as 
marginal wetlands.
    How does the Corps of Engineers expect to be a good servant 
to this country and to its constituents, to allow growth and 
opportunity, and speculation is part of what all that requires, 
if they are going to change their interpretation of this law to 
make it so very, very severe and difficult for a community that 
has spent tens of millions of dollars and 10 years of hard work 
and many, many trips abroad, how does the Corps view that?
    Frankly, I am happy to hear that I am wrong in my 
interpretation.
    Ms. Darcy?
    General Bostick. Congressman, I will start. The Corps of 
Engineers wants to work with all of our partners, both Federal 
and non-Federal, and certainly with the local communities, to 
try to help support them in their efforts.
    Under the Clean Water Act, our interpretation of the 
guidelines is we have to have a committed tenant.
    Mr. Hanna. This is a new interpretation. We have been able 
to find examples previously with other administrations that 
allowed this to happen.
    This is a severe crime against this community. I believe 
Commander Bale would have liked to see this problem go away and 
offer us a permit, this community a permit, but his hands were 
tied and I respect that, because of the interpretation that we 
cannot find in the Code that supports the allegation that we 
are speaking to.
    General Bostick. I think the guidelines provide that we 
review alternative sites and we look at what type of mitigation 
needs to occur.
    You brought up a point that you would be willing to show 
the maximum footprint that might be able to offset the designs. 
I did not realize that. I think the final design could in fact 
show you need less of a footprint.
    If we did look at a maximum footprint, I would have to go 
back to see if that is something allowable for us to grant the 
permit under those conditions.
    Mr. Hanna. What we believe is that the most Draconian and 
harsh approach was taken in this process. It has been appealed. 
As I said, tens of millions of dollars from an otherwise very 
economically challenged community has gone into this.
    We still have no resolution. We have watched plants being 
built in other communities around the State and around the 
country.
    The idea that there is so little latitude, let's say I am 
completely wrong and there is no latitude in the law, I just 
suggest to you that is also wrong, that the Corps of Engineers 
should broaden its horizons and its perspective, that if it is 
a very rigid set of rules and regulations that it is only 
allowed to follow, then following those does not further the 
benefit certainly for the community I am in and did not.
    General Bostick. I would be happy to take a look at it and 
we can follow up with you on whether from a legal perspective 
we have any ability to work outside the bounds that we have in 
this case.
    Mr. Hanna. Can I expect from you your full cooperation with 
the request for the administrative record?
    General Bostick. Yes.
    Mr. Hanna. Thank you very much. No further questions.
    Mr. Gibbs. Representative Johnson?
    Ms. Johnson of Texas. Thank you very much. Let me thank our 
witnesses for being here. My question is to Assistant Secretary 
Darcy.
    I really am interested to know why the Dallas Floodway 
Extension Project is included in the rescission list when the 
project is ready to move forward.
    It seems unfair and unwarranted to include the Dallas 
Floodway Extension Project on the rescission list, especially 
since any delay with obligating the funds were due to lead 
contamination, not mismanagement, and certainly not because the 
funds are unneeded.
    It seems especially inappropriate to rescind these funds 
since they will be used to complete the wetlands portion of the 
project, which is a critical component of improving the flood 
protection to downtown Dallas, and providing safety for many of 
my constituents, and something that the administration claims 
is its priority.
    I am really having a difficult time reconciling what the 
administration says about its commitment to infrastructure and 
what the budget reflects.
    Could you please respond to that? I have a second question.
    Ms. Darcy. The project you are referring to, the Dallas 
Floodway Extension Project, is a project that we have not 
budgeted for, which is one of the reasons it is included on the 
rescission list in the budget.
    Ms. Johnson of Texas. I am sorry?
    Ms. Darcy. We have never budgeted for that project, which 
is one of the reasons it is included on the general provisions 
rescission list in the President's budget.
    Ms. Johnson of Texas. Could you give me a reason why?
    Ms. Darcy. Why it has never been budgeted? It has not 
competed well with the other projects within our entire 
portfolio.
    Ms. Johnson of Texas. The other question is Joe Pool Lake 
sits partially within my district and the Trinity River 
Authority of Texas entered into a contract with the Corps in 
1976 for 100 percent of the water supply.
    Under the terms of the contract, the city of Cedar Hill 
elected not to activate that portion of the water supply and 
instead opted to defer the interest payments. The interest rate 
was set in 1976. It is very high in today's standards.
    By this June, the accrued interest and principal due from 
the city of Cedar Hill is $68.9 million. In Texas, we have a 
desperate need for water, but when the city is being forced to 
pay such exorbitant rates, it makes the use of this water and 
probably others untenable.
    They visited me just recently and said they would never be 
able to come up with that money.
    I want to know with this population and the Ft. Worth/
Dallas Metroplex, it is going to double in 50 years, it is the 
fastest growing area in the country now, so it makes the need 
for water more crucial, what authority does the Corps currently 
have to renegotiate these water supply contracts?
    I know it is not just this one. There are others. What 
other option may be available to communities in this situation?
    Can you provide a list of communities throughout the U.S. 
that are in similar situations where they have deferred 
payments with costs nearing millions?
    From what I am hearing, there are many communities that are 
similarly situated and would like to make payments to the 
Treasury but are unable under these present terms.
    If nothing happens here to renegotiate, they will never be 
able to use that water.
    Ms. Darcy. Congresswoman, the Secretary of the Army does 
not have the authority to reduce the balance, lower the 
interest rate, or allow return to the storage of the Government 
without payment or a penalty.
    The Secretary of the Army and the Corps of Engineers does 
not currently have the authority to do so, and I would be happy 
to provide a list to you about other communities who are 
finding themselves in a similar situation as yours.
    Ms. Johnson of Texas. You need the authority given by 
Congress to do that? You have many locations that will never be 
able to pay this money. They are very small communities. Nobody 
is getting the money at this point.
    Ms. Darcy. If it was back in 1976, you are correct, the 
interest rate would be a lot higher than they could get today. 
It is unfortunate but currently we do not have the authority to 
do that renegotiation to lower the interest rate.
    Ms. Johnson of Texas. You are aware there are a number of 
small municipalities around the country in that shape?
    Ms. Darcy. That are in the same situation; yes.
    Ms. Johnson of Texas. Thank you.
    Mr. Gibbs. Representative Mullin?
    Mr. Mullin. Thank you, Chairman. Thank you for coming in 
today. I have some type of sympathy for you just for the simple 
fact that your hands are tied to a certain degree, and you have 
a tremendous responsibility ahead of you.
    There are still a lot of questions that I feel like the 
Corps could address without having to ask permission to do so.
    I am from Oklahoma. We have one of the busiest if not the 
busiest and biggest inland water ports on the national waterway 
system. Yet for 4 hours every day, the locks to bring up our 
barges are being locked because they are saying less than 1,000 
lockages are being used in our waterways.
    Back 2 or 3 years ago, I guess, there was a study done. A 
recommendation by the Corps was to save money, we are going to 
start closing these locks. If a lockage on inland waterways, 
which in the current system has fewer than 1,000, we are going 
to lock it.
    As of 2012 when this started, when you started the locks, 
the numbers were sufficiently higher than 1,000, because the 
data you are using is from 3 years ago, when the economy 
obviously was in bad shape.
    My question to you, ma'am, is when are you going to fix 
this problem? When are you going to look at the new data that 
is out and quit allowing a backlog that is setting at these 
lockages waiting to get through for 4 hours because you are 
using old data?
    Ms. Darcy. Congressman, you are correct, the data is from 
that long ago, and we just instituted this reduced levels of 
service this past year.
    What we are going to do every year, beginning this summer, 
is look at what the impact has been for this calendar year, or 
once the levels of service were reduced, looking at both the 
data from that year and as close as we can come to the most 
current data to evaluate whether the levels of service should 
be changed.
    You are correct that we are looking at 1,000 commercial 
lockages or more would get the increased levels of service.
    We were operating all of our locks and dams 24/7.
    Mr. Mullin. The data is already in support of these 3, 
there are 5 on the McClellan-Kerr waterway, but there are 3 in 
Oklahoma, and data is already there that all 5 are locking more 
than 1,000 already.
    My question is why do we need more data? You already have 
it there. There is no more study that has to be done. The rule 
was fewer than 1,000 lockages, commercial lockages, and we are 
well over that number now.
    Ms. Darcy. We will reexamine those numbers. We were basing 
it on 1,000 or more commercial lockages. If it is demonstrated 
that 1,000 or more commercial lockages are being locked on that 
facility, then they would be raised back to the initial level 
of service one.
    Mr. Mullin. We can provide that information. My office can 
provide that information for you. What is the turn around time 
on this?
    Ms. Darcy. I would have to check with our district 
commander. We would be happy to look at it.
    Mr. Mullin. Are you saying we could get this accomplished 
fairly quickly? This is directly a decision that you can make. 
This is not something that has to come through Congress. This 
is not something you have to ask permission for.
    Ms. Darcy. That is correct.
    General Bostick. This is something we can decide on. Our 
plan was to use the data we had and then come back a year after 
that, make an assessment, and then with the new data at the end 
of the year, make the proper adjustments.
    I think the bigger issue is we have a lot of infrastructure 
out there and a lot of it is failing or is about to fail. We 
just do not have the money for O&M in order to maintain it.
    Mr. Mullin. General, with that being said, that brings me 
to another question. We have three locks on the McClellan-Kerr 
system, like I said, and by your own admission, there is a 50/
50 chance these could fail at any time, and we are talking 
about $100 million of backlog, of repairs needed to be done.
    Underneath the new budget, $98 million is going to just one 
project. Why are we not spreading that out? Why are we focusing 
on just one project when there are so many inland water ports 
that are so dependent on the infrastructure, that we are 
focusing on just one area?
    General Bostick. Again, we have talked about the projects. 
What we try to do is make sure that life safety comes first and 
then we focus on navigation, aquatic ecosystem restoration and 
flood risk management. Those are the three areas we look at.
    When you look inside the inland waterways, the top six 
rivers carry about 95 percent of the commercial cargo. They 
receive about 70 percent plus of the funding. We have to take 
that remainder of the money and spread it out based on the 
priorities that we can see. The bottom line is there are much 
more requirements that we have than we have funding.
    Mr. Mullin. Thank you. Ma'am, we will get that information 
to your office and I look forward to hearing from you.
    Ms. Darcy. OK. Thank you.
    Mr. Mullin. Mr. Chairman, thank you.
    Mr. Gibbs. Representative Frankel?
    Ms. Frankel. Thank you, Mr. Chairman. First of all, I want 
to just give a shout out, Madam Secretary, to our district 
commander in Florida out of Jacksonville, Colonel Dodd. He and 
his staff have been very, very cooperative to work with. I want 
to thank you for that.
    First question is if this committee does not authorize 
specific projects in the upcoming water bill, what will drive 
the Army Corps work agenda in the future?
    Ms. Darcy. Congresswoman, we will continue to construct and 
operate and maintain the existing projects that we are 
responsible for now. If there are not any additional projects 
authorized, there are about 23 Chief's Reports before Congress 
right now awaiting authorization, but if those projects do not 
get authorized, we will continue to hopefully complete and 
operate and maintain the projects that we have authorization to 
do.
    Ms. Frankel. Thank you. I want to talk a little bit about 
Everglades restoration, which is very important to Floridians, 
and has always enjoyed bipartisan support.
    The comprehensive Everglades restoration plan, as you know, 
provides a framework and a guide to restore, protect and 
preserve the water resources in southern Florida, including the 
Everglades, and was approved in a water bill in 2000.
    I want to sort of answer a question that was asked about 
economic impact of these types of projects. A recent study by 
the Everglades Foundation shows a 4:1 return of an investment, 
because it is not just about making the environment look 
pretty, restoring the Everglades, it is improving our water 
quality, our fishing opportunities, our habitat, hunting, 
increasing real estate values, park visitation.
    There are a lot of economic factors of why we need to 
continue with these projects as well as life sustaining. It is 
our drinking water and natural habitat that live in the 
Everglades.
    My question to you is in doing this water bill, in order to 
continue the work of the Everglades restoration, do you need 
specific authorizations?
    Ms. Darcy. Congresswoman, there are, I believe, four 
projects awaiting authorization that impact the Everglades 
restoration. I would have to check my notes to see what they 
are. Four of them would need to be authorized soon in order to 
be able to complete, not complete, in order to continue the 
restoration efforts. Most of what is being proposed in the 
entire south Florida system is a system's approach to the 
restoration so each of them are connected, and the four that 
are currently pending need to be authorized as soon as we can.
    Ms. Frankel. Does there have to be specific language 
identifying those particular projects?
    Ms. Darcy. In the authorization bill in 2000 that 
authorized the entire program, there was language that required 
a project implementation report for each of these projects, and 
that is what we have submitted through the Chief of Engineers 
and through the administration to the Congress. Yes, they need 
to be authorized.
    Ms. Frankel. Another quick--I do not know if this quick, 
but, first of all, thank you. I know we met last week if you 
remember because we were trying to get a Chief's Report for 
Port Everglades. And one of the issues that we talked about was 
the economic model that is being used in order to do the 
evaluation. And I am wondering whether you have given any more 
thought to how you can share information so that--in a 
transparent way?
    Ms. Darcy. The district met with the local sponsor for the 
Port of Everglades study that you are referring to in order to 
try to do just that. The Harvard simulation model, which is 
what we are using to do the economic modeling for this project, 
has various inputs, both from Corps of Engineers data and also 
the local sponsors' data input to help run the model. So we are 
trying to be able to share as much as we can, barring any legal 
or proprietary arrangements that we have with those who have 
provided that data to us in a way that we can be transparent, 
as well as share that information with the local sponsor so 
that we can get this economic model in sync and ready to go to 
support this Chief's Report.
    Ms. Frankel. And very quickly, many of our local 
governments in south Florida have been waiting to receive 
millions of dollars owed to them for beach renourishment, how 
are we going to get our money?
    Ms. Darcy. I do not know if I have an answer to that one. 
You and I also spoke about the Sand Report. Is this related to 
the domestic sand burst?
    Ms. Frankel. Well, this has to do with the federally 
authorized cost share program.
    Ms. Darcy. I am not quite sure which projects you are 
referring to unless they are all part of the beach 
renourishment projects on the coast?
    Ms. Frankel. There are many of them along the coast in 
south Florida.
    Ms. Darcy. Right, well, all of our beach renourishment 
projects are on a renourishment schedule because they are 
authorized. Most beach renourishment projects are authorized 
for a 50-year project life, and within that authorization, 
there is a renourishment cycle. Where the project sits, the 
tides and the little drift determines what the renourishment 
cycle will be. And each project can be renourished every year 
or every 10 years, depending again on the project's location 
and its authorized purposes.
    We have been budgeting for renourishment projects so they 
should be able to continue hopefully at the rate that they had 
been authorized.
    Ms. Frankel. Thank you. Thank you, Mr. Chair.
    Mr. Gibbs. Mr. Massie?
    Mr. Massie. Thank you, Mr. Chairman. This question is for 
Ms. Darcy. In the decision, National Mining Association v. 
Jackson, the court ruled that the enhanced coordination 
procedures developed by the EPA to dictate or influence the 
terms of section 404 permits under the guise of coordinating 
with the Corps unlawfully changed the permitting process for 
section 404 coal mine permits under the Clean Water Act. And 
these unlawful policies, adopted more than 3 years ago, created 
a permit moratorium, if you will, resulting in almost as many 
section 404 permit applications being withdrawn by applicants 
as issued by the Corps. How is the Corps ensuring that these 
permits are going to be issued in a timely manner and 
consistent with the court's ruling?
    Ms. Darcy. I think the enhanced coordination procedure is 
what you are referring to, which was overruled by the courts. 
Since that ruling, we have been doing all that we can to do 
timely reviews of our 404 permits in compliance with the law. I 
do not, off the top of my head, have our current rate of 
review, but, again, it is all dependent upon whether we get all 
the information that we need upfront for that timely review. I 
will have to check with my staff, but I think it is between a 
30- and 60-day review period depending upon the complexity of 
the permit.
    Mr. Massie. Since the ruling, have any permits been issued?
    Ms. Darcy. Since then? Yes. I can get you the number for 
the record if you would like.
    Mr. Massie. OK, thank you very much. Now, switching gears a 
little bit. Recognizing the desperate need for upkeep and 
investment in our inland waterways, the commercial carriers and 
users of these waterways have pretty much volunteered to help 
make a contribution to this, but the question is how will this 
user fee, if you will, be collected. So, there has been some 
discussion as to whether this would be collected as a lock fee 
or, as is currently the case, as a fuel tax, if you will. Can 
you talk to that?
    Ms. Darcy. Sure. Currently, there is the tax on diesel for 
the inland waterway users. The lockage fee that has been 
proposed by the President would be established. We have not 
elaborated on all the details of the fee, but we would like to 
be able to work with our stakeholders, as well as this 
committee, to determine how that lockage fee would be assessed 
and collected.
    I think part of it is just what exactly would the mechanism 
be for the collection? Would it be at each lockage site? Would 
it be some cumulative accounting that would be collected at the 
end of a year? Those details have not been established.
    Mr. Massie. Let me ask this then, wouldn't that create--
creating another fee when there already is a mechanism for 
collecting a user fee, creating that new fee, wouldn't that 
create another level of bureaucracy and some inefficiency and 
also a disproportionate burden on users on one portion of the 
inland waterway versus another?
    Ms. Darcy. Well, again, those are the kinds of questions 
that we need to work out and get some input on because we don't 
want to create additional bureaucracy or an additional 
administrative expense. So maybe it would make sense to collect 
the lockage fee in the same way that we currently collect the 
tax, although the tax is, as I say, on the fuel that each barge 
owner and each transporter pays.
    Mr. Massie. In your opinion or professional opinion, do you 
think it could affect users disproportionately on the inland 
waterways if it were collected as a lock fee versus a fuel tax?
    Ms. Darcy. Well, again, it would not be in the same 
proportion as the tax because the tax is on the amount of fuel 
you use. This would be on the numbers of times you lock into a 
lock. So those users who lock in more would be paying a larger 
fee than those who use different portions of the inland 
waterway system. Where you don't have as many locks or as many 
lockages per trip, would be paying less.
    Mr. Massie. Would it be easier just to use the existing 
structure than to create a new bureaucracy, if you will?
    Ms. Darcy. Well, the existing structure is the diesel tax, 
and this would be a different fee. It would not be a tax on the 
commodity that they are purchasing. So, it would be a different 
structure but maybe there is a way that we could develop it so 
that it would not create the duplication that you might be 
considering would be as a result of this.
    Mr. Massie. OK, thank you very much. I yield back.
    Mr. Gibbs. Just for a point of clarification, Secretary 
Darcy. You referred to it as a ``lockage fee,'' I believe in 
the President's budget request, he refers to it as a ``vessel 
fee,'' which I think could be a different animal because, you 
know, a lockage fee would be a charge every time a vessel goes 
through the lock. A vessel fee could be something different 
where you charge a license to be on the system.
    Ms. Darcy. Right, or you could charge per barge or as you 
say per vessel as opposed to per lockage--per barge as opposed 
to each time you go into the lockage fee.
    Mr. Gibbs. So, what is the administration requesting, a 
vessel fee or a lockage fee?
    Ms. Darcy. I think we are open to either.
    Mr. Gibbs. Open?
    Ms. Darcy. We are open to finding out which would be the 
best use and create the best revenue source for it.
    Mr. Gibbs. OK.
    Ms. Darcy. We are not locked in, no pun intended.
    Mr. Gibbs. Representative Kirkpatrick?
    Mrs. Kirkpatrick. Thank you, Mr. Chairman. Assistant 
Secretary Darcy, you know I represent the city of Flagstaff. I 
sent you a letter in February of this year about the Rio de 
Flag project. For the past 20 years, that has been a major 
priority of the city of Flagstaff. We have had 15 major floods, 
large floods, since 1888. And another flood would affect half 
the population of a town of 65,000.
    I just want to quantify some of the economic damages and 
have that in the record. Another single flood would cause 
damage to approximately 1,500 structures valued at $450 
million. A single large flood event would cause an estimated 
$93 million in economic damages to the area. On the other hand, 
completion of the Rio de Flag project would result in an 
estimated $100 million in economic development to the 
community. This project really is the lifeblood of the 
community.
    The Federal Government has spent more than $24 million to 
date. The city of Flagstaff has kicked in more than $14 
million. At this rate, it will take us 20 years to complete 
this project. So my question is when will the Corps commit 
significant resources to this project to ensure that this city 
and its citizens and businesses will not be at risk for another 
catastrophic flood?
    Ms. Darcy. Congresswoman, I do not believe that this 
project was budgeted for in the President's 2014 budget, so at 
this time I cannot make a commitment as to when it would be 
budgeted.
    Ms. Kirkpatrick. That is very disappointing. In my letter 
to you, I asked--I requested $3.9 million just to keep the 
project going. And I think it is so important not only to the 
community, but we do not want to waste taxpayer dollars that 
have already been spent on this project. So I hope that it will 
continue to be a top priority of the Corps and the 
administration.
    My second question goes to another project in my district, 
the lower Santa Cruz. The lower Santa Cruz River has a long 
history of severe floods that can destroy everything in its 
path during heavy rains. The Army Corps' own report states, 
``Today, with the area's rapid growth and river flow changes, 
damage from a major flood could devastate the entire region and 
cost billions of dollars in damage. Before the Army Corps can 
move on this project, a reconnaissance study must be completed 
at the cost of $100,000 in Federal funds.'' Can you use fiscal 
year 2013 work plan funds? And, if not, can you use fiscal year 
2014 monies in your budget to fund the reconnaissance study?
    Ms. Darcy. We cannot use 2013 work plan money because it 
was not in the 2012 budget; we cannot budget for anything in 
the 2013 that was not funded in 2012.
    Ms. Kirkpatrick. Well, what about 2014? Using the work plan 
funds for that in the 2014 budget?
    Ms. Darcy. Well, the President's budget for 2014 does not 
include funding this project. We will have to decide whether we 
get a 2014 work plan or not. If we are operating under a 
continuing resolution, which we have done for the past 3 years, 
then we would develop a work plan for spending in 2014. But in 
the past, we have been directed not to fund anything in that 
work plan that was not funded in the previous work plan.
    Ms. Kirkpatrick. So, basically, I have to report back to 
this community there is not going to be any funding for several 
years for this very important major project?
    Ms. Darcy. Unfortunately, it is not in the 2014 budget.
    Ms. Kirkpatrick. OK, thank you.
    Mr. Gibbs. Thank you. I am going to rotate back and forth a 
little bit with myself, me and myself some time. Secretary 
Darcy, I want to--in light of yesterday's U.S. Court of 
Appeals, District of Columbia, court decision on the revocation 
of the 404 permit that was done 3 years after the Army Corps 
issued the permit, and my understanding is on that permit that 
the Army Corps issued, there was no violations of the permit. 
There wasn't a problem. I believe last Congress in our 
testimony we heard--we had reports from the State of West 
Virginia, the EPA did not support the U.S. EPA's actions. The 
Army Corps admitted there were no issues with the permit in 
violations or anything like that.
    Questions come to mind that is really concerning to me is a 
business entity goes through the long process, in this case it 
was a number of years, and get their permit and start the 
operation. And 3 years later, the U.S. EPA revoked the permit, 
which I believe really is the first time in American history 
that ever happened. What is the value of getting a permit from 
the Corps with that threat?
    And then, secondly, what did the Corps do in your capacity 
to stand up, you know, to uphold the Corps decision to grant 
the permit? Did the Corps make any arguments in support of the 
actions of the Corps?
    Ms. Darcy. I am familiar with the court case, Chairman. And 
because the Corps of Engineers is, in the State of West 
Virginia, currently under litigation on this same permit. I 
cannot comment.
    Mr. Gibbs. OK. OK, so I guess I will see if I can rephrase 
that question. So there wasn't--I guess I am at a loss here 
what to say. The question would be during--was there 
consultation before the permit was revoked in 2010 between the 
Corps and the EPA? Can you comment on what consultation might 
have happened when I assume the Corps got word that the EPA was 
considering doing the revocation, was there any consultation 
previous to revocation?
    Ms. Darcy. Congressman, unfortunately because----
    Mr. Gibbs. OK.
    Ms. Darcy [continuing]. Of the situation, and because this 
case has been remanded, it means it is still ongoing--it has 
been remanded back to the circuit court, and then our ongoing 
litigation.
    Mr. Gibbs. OK, OK, let me ask--let us forget about that 
then. Let's ask more of a hypothetical in the future. What 
would your role as assistant secretary of Army Civil Works do 
if an issue where you issued a permit, and things were going 
along fine in the operation of the entity that has the permit, 
what would be your role as the Corps to argue the case or not 
argue the case to defend the actions of the Corps, what would 
be your response to the EPA?
    Ms. Darcy. We would defend the issuance of a Department of 
the Army permit. A Department of the Army permit goes through 
any number of consultations from the beginning to the end, and 
once it is issued, I think that we would defend it. It is under 
section 404 of the Clean Water Act, I think it is section T 
that is the veto authority for the EPA.
    Mr. Gibbs. Is there any thoughts of--or maybe you have 
already done it, having some guidelines set up, some kind of a 
framework that the Corps and the EPA would work instead of just 
an ad hoc policy?
    Ms. Darcy. If we issue a permit and EPA has issue with that 
permit, and wants to use their veto authority, the Department 
of Justice is sort of the arbitrator in that situation for us.
    Mr. Gibbs. OK, would you concur with me that we should do 
everything possible because of the value of the permit, these 
companies, these entities, expend a lot of dollars to go 
through the environment studies and all the things they need to 
do, create a lot of jobs, to make sure that the value of that 
permit really has something behind it. So you would go on 
record saying that the Corps would defend that permit, 
especially if there is no violation of the permit?
    Ms. Darcy. Yes.
    Mr. Gibbs. OK, want to make that clear. Mr. Garamendi, go 
ahead.
    Mr. Garamendi. Thank you very much, Madam Secretary. Thank 
you for your appearance here. I think we have heard virtually 
all of us that we want more. We want something done. I am going 
to join in that, but I want to thank you for the work that has 
been done. I want to thank you for the work that you have done 
on saving these people's lives in floods and responding to 
those floods. You and the men and women of the Army Corps of 
Engineers have done an exceptional job over the years.
    I suspect that a lot of the problem that we have heard from 
various--from us and others comes not so much from the Corps 
but rather from us, from the appropriations, or lack of them, 
from our desire not to do earmarks puts the Corps in a very, 
very difficult situation.
    Ranking Member Bishop laid out very well the conundrum that 
we all face. It is a conundrum that you are being held 
accountable for but it is really our responsibility. We have 
not made the appropriate--we have not made the appropriations. 
We have not analyzed projects that should be discontinued and 
put them aside. We have let projects continue on. So I think 
the problem really lays here, but you are being held 
accountable. And I do not think that is right.
    I do want to thank the Corps for what you are proposing, 
and what you have done in my district and the surrounding 
areas. You are moving very quickly on the Sutter Buttes levee 
project, a 40-mile critical levee project in Sutter County. We 
thank you for getting that done and moving it expeditiously.
    You have provided in the President's budget, and I hope 
that we keep it in, money for the Yuba River fish passage, a 
critical issue, as well as money for the Yuba River Basin. I 
thank you for that. Even the children's center at Beale Air 
Force built ahead of time and below cost by the Corps of 
Engineers, we thank you for that. We know you are going to do 
some drudging at the Port of Stockton. We thank you for that 
continuing. On the American River, a huge project that is going 
to protect the second most at-risk city in the Nation, 
Sacramento. And I know you are moving forward on the Chief's 
Report for the Natomas. We thank you for that. And little 
Hamilton City, which is clearly going to be flooded the next 
time the Sacramento River rises, you have proposed money for 
that. And we thank you for that.
    And I would simply say that for the rest of the issues, I 
suspect that if we gave the Corps the money it needed for all 
that we have asked, you would get it done on time.
    I want to also bring to your attention something you are 
doing already, and I would like you to continue to do this, it 
is your 3<greek-e>3<greek-e>3 program. I think it can work. I 
think if there is a flaw in it such that you do not have the 
money to complete the third 3, and once again that comes back 
to us. We will talk about other things along the way. We have 
got the Bay Delta, a huge issue, and I know that you are 
engaged there with the Bay Delta studies and the levees, 
thousands of miles of levees in my district.
    I look forward to working with you on this. Thank you very 
much.
    Mr. Gibbs. Representative Hahn, do you have a question?
    Ms. Hahn. Thank you, Chairman Gibbs, Ranking Member Bishop. 
There is certainly more attention now than ever has been I 
think on the idea of spending the Harbor Maintenance Trust Fund 
fully for the purpose that it was intended. And I know in my 
bipartisan PORTS Caucus, this issue is really, really coming to 
the forefront. So, ports are now coming to the forefront of 
our--of the dialogue here. The President even mentioned the 
need to modernize and keep our ports competitive.
    I mean when we really talk about the economy and the jobs, 
it really does come down to our ports being dredged, maintained 
and modernized, and yet we do know that we are spending so 
little of the HMT. We are glad to see that the administration 
is proposing to increase the spending to I guess the highest 
level yet at $890 million, but that is still only half of what 
the Harbor Maintenance Tax is collecting. And it is collecting 
it for the express purpose of maintaining our harbors. The 
American Association of Port Authorities suggests that full 
channel dimensions are available less than 35 percent of the 
time. So, I think that is a real problem as we move forward 
with the Panama Canal coming online, keeping our ports in this 
country competitive.
    So, every time I suggest that we spend the Harbor 
Maintenance, which by the way has a $9 billion surplus right 
now, every time I suggest spending it for the intended purposes 
for which it is collected or returning the tax to the ports 
where it was collected, I get pushed back. And what I usually 
hear is, ``Well, if you actually spend that money for dredging 
our harbors, maintaining our harbors, actually spend it on what 
it is intended to be used for, all these other projects that 
the Corps has will have to be suspended, put aside, not done.'' 
Can you explain to me why that is?
    Ms. Darcy. Congresswoman, because there is a cap to our 
budget, I mean the President's request is $4.8 billion for this 
fiscal year. If we take the $890 million in the Harbor 
Maintenance Trust Fund, which is appropriated out of that Trust 
Fund by the Congress, and if we were to say we are going to 
double that, we are going to use it all, then we are still only 
at $4.8 billion. So that money has to come from someplace else. 
So that additional $890 million would have to come from other 
projects.
    Earlier, Congressman Bishop was talking about the fact that 
that would delete our construction budget probably only down 
$200 million that we could spend on construction. We are capped 
at $4.8 billion for our overall budget.
    Ms. Hahn. So if that--if your budget, if the cap was 
lifted?
    Ms. Darcy. If 302B allocations, both within the energy and 
water appropriations bill were changed or within the Army Corps 
of Engineers, that would be a way to increase the spending from 
the Trust Fund.
    Ms. Hahn. And say that we--that happened, and we lifted the 
cap, and we actually--Congress agreed to spend the entire 
Harbor Maintenance Trust Fund back where it is meant to be 
spent in its ports and harbors, could the Corps actually--or 
maybe I should ask how long would it take for the Corps to 
bring up all of our Nation's ports to their authorized 
deepening level?
    Ms. Darcy. Oh, I would just be speculating. I might defer 
to the Chief on this, but it depends again if we are talking $2 
billion a year.
    Ms. Hahn. Yes.
    Ms. Darcy. Let us say $2 billion a year; I think it would 
take us, at a $2 billion a year expenditure rate, at least 5 
years to get to that authorized level.
    Ms. Hahn. And how many jobs do you think would be created 
if we actually got all of our harbors up to speed?
    Ms. Darcy. I do not know. I would have to do a calculation 
as to the increased numbers and the availability of dredges and 
what per----
    Ms. Hahn. I would like you to get that back.
    Ms. Darcy. OK.
    Ms. Hahn. I would like to see it. I think that is really 
how we should talk more in this country when we talk about 
these kinds of appropriations, what it actually means to job 
creation, as well as global competitiveness. So, I do think 
that this is an issue that we are probably--we are pushing I 
think probably more than any Congress ever has before, so get 
ready.
    Ms. Darcy. OK.
    Mr. Gibbs. Representative Napolitano. I struggle with your 
name, sorry.
    Mrs. Napolitano. Just try Grace. Thank you, Mr. Chair. It 
is good to see you, Secretary Darcy and General Bostick. Look 
forward to working with you. I have got to tell you both that 
both your former directors in the area, my area, we worked with 
them for years, Colonel Mangus and Colonel Troy. And they are 
both excellent. Not only my staff but all my entities and 
others are really very much in agreement that they are very 
easy to work with and very responsive to the needs of the 
communities that we all serve. So I wanted to thank you for 
them.
    As you are aware, Santa Fe Dam is in my area, and it is a 
very, very critical part of the flood control and water 
conservation. One of the biggest problems is sediment buildup 
because you get all the sediment coming off the mountain range. 
And the ability to remove that requires the Corps to look at 
its policy to market the sediment instead of giving it away, 
like many of the other flood control agencies do, and they get 
rid of it real easily, very quickly to be able to be ready for 
the next storm. It is a major bureaucratic burden, and we want 
to be able to work with you. How can we speed up the process? 
Does it require an act of Congress? Is it something we can put 
into WRDA? What can we do to be able to effectively speed up 
the process to be able to capture more rainwater since we are 
in a drought condition? Yes?
    General Bostick. I am not sure I am tracking with the 
question, Congresswoman. I thought you were talking about the 
sediment and whether we can dredge more.
    Mrs. Napolitano. Right, the Santa Fe Dam is in my area, and 
they have apparently looked to the Corps to request the ability 
to move that. And apparently the Corps policy requires you to 
market the sediment instead of giving it away. Well, it is a 
major bureaucratic burden for them to act quickly and 
efficiently, value the sediment and get rid of it, while other 
local control agencies are able to give it away without having 
to go through a bureaucratic maze. How can we expedite that? 
Does it require us to be able to include it in WRDA or what can 
we do so that we can effectively dredge those areas, remove 
that sediment and allow for more capture of storm water?
    General Bostick. I think I am going to have to follow up, 
Congresswoman. I really do not have the answer to that specific 
issue.
    Ms. Darcy. But I agree with the Chief. I think that kind of 
valuing in the market of sediment would have to compete with 
some of the other missions that we have similar to that in the 
area. But I think we do need to follow up because I am not 
aware of the marketing component that you are referring to.
    Mrs. Napolitano. Well, this was brought up to me by some of 
the L.A. County folks. And then there was an issue--and I 
understand this is taken care of, but I am not quite sure. The 
Water Replenishment District offered to help pay for the 
Whittier Narrows Study to upgrade the leak study in the dam. 
And they offered to help pay for the study, and we could not 
get the Corps or anybody to accept the money to be able to get 
it done. And it was listed as a top priority, yet to this day I 
do not think the study has been finished because of the money. 
And we were able to get some funding, but they were willing to 
help pay for the study. And we could not find anybody to accept 
the money.
    Ms. Darcy. We do have authority to accept contributed 
funds, but I believe we have to have a project partnership 
agreement with a local sponsor before we can accept those 
contributed funds. But in this particular case, Congresswoman, 
I will look into it because it just seems as though that makes 
sense.
    Mrs. Napolitano. Well, it would have expedited the ability 
for them to be able to work, and the Replenishment District 
would have had more potential of putting recharge.
    With EP's direction to pursue an integrated watershed 
approach for water resource planning, local agencies are 
looking for using a multibenefit regional water resource 
project, projects, plural. They would integrate a variety of 
water management objectives, including storm water quality 
improvement, increased storm water capture to enhance local 
supplies and increased recreation with enhancing habitat. 
Because there is such a value in water, we have the North and 
South fights over water, and the drought situation, we are 
looking to see how we can help get the Corps' help to 
contribute to such projects?
    Ms. Darcy. Congresswoman, we are currently looking at doing 
something just like that; we are doing our watershed budgeting. 
Actually, we have got a couple of pilots right now that 
hopefully we are going to be able to include and propose in the 
2015 budget that would do watershed budgeting, which would 
incorporate many of those concepts and how we would budget for 
our future project.
    Mrs. Napolitano. I look forward to working with you, and 
being able to clarify and expedite any of these that we may. If 
it requires congressional approval, then we need to know so we 
can begin the process.
    One last question, Mr. Chair. It requires the new fees that 
are being imposed on the county parks department, the Los 
Angeles Department of Parks and Recreation has an 836 acre 
facility, and apparently there is a concession agreement with 
the Corps. And they are requesting based on a letter of January 
11th of 2012 to be able to pay for analyzing concession--review 
and analyzing concession agreements. Is that something new? 
When was that put into effect, and can we get more information? 
I do not need your answer now, but I will talk to you about it.
    Thank you, Mr. Chair.
    Mr. Gibbs. I will yield to myself a couple more questions. 
General Bostick, first of all, I would like to thank you and 
General Walsh for expediting the rock pillar destruction and 
the dredging there on Cairo, Illinois, on the Mississippi to 
keep that openness pass several months. And I know in my local 
farm elevator in my local community was paying attention to 
that, so I know the agricultural community and other shippers 
are really appreciative of that, to get that expedited and get 
that job--keeping that part of the river open.
    General Bostick. Thank you, Chairman. I will pass that on 
to the troops. They reacted fairly well when we got support 
from throughout Washington down to the local level, so we 
appreciate it.
    Mr. Gibbs. That is great. I know you are able to expedite 
the contracts, and do all that you needed to do, so things 
cannot happen until we determine to get them to go, I think.
    General Bostick, the President's budget requests a change 
in the cost of the Olmsted Locks and Dam project. It increases 
it approximately $3.1 billion. How much of that cost increase 
can be spent--will be spent on salaries and administrative 
costs at the district level? Do you have any idea?
    General Bostick. Chairman, could you say the specific 
project again?
    Mr. Gibbs. The Olmsted Locks and Dam project that the 
President--it has been, you know, there has been a lot of cost 
overruns there. It has been a project that has gone on now for 
nearly 30 years, and it has been up to $3.1 billion, which is 
several times the original appropriation. My question is how 
much of that cost and the overruns in the future is being 
allocated to salaries and administrative costs at the district 
level, which would be the Louisville District?
    General Bostick. I do not have the specific number, Mr. 
Chairman, but I could follow up with you on that.
    Mr. Gibbs. OK, appreciate that. Also, due to schedule and 
cost overruns I mentioned at the Olmsted lock, the Olmsted 
Locks and Dam project is being built to replace the very aging 
locks, 52 and 53. How much of this funding increase for Olmsted 
is going to rehabilitate locks 52 and 53? And when do you think 
those--the major rehabilitations will occur?
    General Bostick. What I would say, Mr. Chairman, for 
Olmsted to move forward, we need a 902 fix. If it does not move 
forward, then we will continue to do the work that we are doing 
to maintain locks 52 and 53.
    Mr. Gibbs. I fully understand that. I am going to get to 
the 902 in a second, but my question is what are we allocating 
towards locks 52 and 53 because my understanding is they need 
to stay operational? We are going to invest money because we 
are probably what, 8 or so years away of completing the Olmsted 
Project? And so I am wondering is the $3.1 billion, is that 
part of the allocation for Olmsted to facilitate the 
rehabilitation of locks 52 and 53 or is that in addition?
    General Bostick. That cost is just for Olmsted. The 
maintenance of locks 52 and 53 is separate, and I would have to 
get that figure for you.
    Mr. Gibbs. OK, OK, I appreciate that. Also, the 902 fixes 
that will be needed in 2013, how many 902 fixes are there for 
this fiscal year 2013 and also for fiscal year 2014?
    General Bostick. I think the total is about 30, but I would 
have to follow up. It is roughly about 30.
    Mr. Gibbs. Yes, we would like to have a list of that, and 
then also I think the amount, the dollar amount since we are 
working on the WRDA bill. I think in order to put all this 
together, we have to get a handle on that.
    Also, in WRDA 2007, Congress authorized the Corps to 
utilize independent peer review for some of its projects. How 
long do these reviews typically take, and how much do they 
typically cost on these peer reviews? Any idea on that?
    General Bostick. It really depends on the size of the 
project, the magnitude and the level of difficulty. I really 
cannot put a number on it that would be a typical number or a 
cost. We try to work these as rapidly as we can, and it just 
varies between projects.
    Mr. Gibbs. Secretary Darcy, I think you want to comment?
    Ms. Darcy. Well, I believe our report to Congress last year 
was on how we had implemented since 2007. We had spent about 
$8.2 million on I believe it was 29 independent external peer 
reviews. And, as the General said, it varies from project to 
project but that is just a broad brush look at what has 
happened since 2007.
    Mr. Gibbs. OK. General, also the Harbor Maintenance Trust 
Fund for fiscal year 2013, salaries and administrative costs 
and overhead, you probably will not be able to answer this 
today but hopefully you can get back to us about the money that 
is generated in the Harbor Maintenance Trust Fund, how much of 
it is allocated for administrative costs and overhead and also 
for fiscal year 2014?
    General Bostick. I will follow up with you on that.
    Mr. Gibbs. OK. Another question, Secretary Darcy, the 
Inland Waterways Users Board, those appointments have not been 
made by Secretary Hagel, Department of Defense. Can you give us 
an update of when we could expect those appointments?
    Ms. Darcy. Sure. The charter has been renewed. We got that 
word at the beginning of this week, and we are awaiting the 
selection of the members. We have been in contact with the 
Secretary of Defense's office, and I am hoping that within the 
next couple of weeks, we will be able to get those appointments 
made.
    Mr. Gibbs. I think it is important that we have that in 
place, at least it is a good sounding board, communications 
back and forth in the Corps and the stakeholders, and hopefully 
we can make things work a little better.
    Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman. And I appreciate very 
much this hearing, and I appreciate very much the testimony of 
our witnesses. And I want to echo what Mr. Garamendi says. I 
want to thank the Corps for the work you do under--at times in 
pretty trying circumstances. So, thank you very much.
    At the risk of being irreverent, my summary of both this 
hearing and the current state of affairs with respect to the 
Corps is we have met the enemy and it is us. And the ``us'' in 
this case is the Congress. We are constantly asking you to do 
more, constantly wringing our hands that you are not doing more 
or doing the things we want you to do, and yet we are giving 
you less. We are proposing phantom solutions to real world 
problems. The earmark ban prevents you from going forward on 
the 23 Chief's Reports that are completed for which we have 
expended taxpayer money. The earmark ban prevents you from 
acting on the 30-some projects for which we have hit the $902 
cap for which we have spent a great deal of taxpayer money. So, 
I just very much hope we now have a very clear understanding of 
what we need to do.
    And, again, I want to thank Chairman Gibbs and Chairman 
Shuster for these listening sessions, and these stakeholder 
sessions. I think they have been enormously valuable. We know 
what we need to do in terms of the work that needs to get done, 
but we also now know what we need to do as a Congress if we 
really want to see it get done.
    So, I very much hope that--this committee has always had a 
very clear, bipartisan problem-solving approach, and I hope we 
can summon that approach in this circumstance to see to it that 
we give the Corps the resources that it needs to have in order 
to get the work done that we all agree has to get done.
    With that, Mr. Chairman, I will yield back. Thank you.
    Mr. Gibbs. OK, Mr. Garamendi, you have another question?
    Mr. Garamendi. In my earlier comments, I had intended not 
only to thank Secretary Darcy but also General Bostick and the 
men and women in your organization, particularly Colonel Leedy 
out in California and Sacramento. It is a pleasure to work with 
him and his staff there.
    I would like to hear from you, perhaps in writing on a 
subsequent meeting, how we could change the systems, some of 
which are law, some of which are procedures that have been 
practiced for some time by the Corps, to be more quick, 
eliminating unnecessary steps and other elements that slow down 
the process. I know that much of that is, again, here. It is 
our authorization and our appropriation process, and the lack 
of continuity that I talked about before.
    But I think we--I would like to engage in a discussion with 
the Corps about how we could change, perhaps the 3 by 3 effort 
is a way of accomplishing that. If so, further detail on how to 
make that more than just an experiment but make it a reality. 
And your perspectives on our work, on how our processes make it 
difficult, and in some cases impossible, for you to carry out 
your tasks. So, I will put that out there, and then look 
forward to a detailed discussion about that.
    Ms. Darcy. I think that would be a great conversation to 
have, Congressman.
    General Bostick. And thank you for the compliment on 
Colonel Leedy, he and his team are doing a great job and many 
other commanders and civilians at all levels answering the call 
to duty. But we look forward to having that discussion as well.
    Mr. Garamendi. In that regard, I recall the flood of 1986 
in California. And the colonel at the time, who I despair I 
cannot recall his name, came to the community of Walnut Grove 
where I lived where we had a flood underway, and we said, 
``Well, if we could build this short levee, about a quarter-
mile levee, we could save the city,''--``the town,'' not hardly 
a city. And he said, ``Let me see.'' He went back, took out his 
book and said, ``Here is the section, what do we need to do?'' 
And he had called two contractors who happened to be nearby. He 
said, ``Gentlemen, I want to bid. I want to raise this levee 5 
feet, and I want it done in 1 week. Give me a bid.'' And so the 
two contractors went off to one side. ``No, no, you over there 
and you over there.'' They came back with a bid on the back of 
an envelope. He took the low bid. Then the two contractors got 
together, and they did it. And they saved this small town.
    I appreciate the Corps. Thank you.
    General Bostick. Thank you.
    Ms. Darcy. Thank you.
    Mr. Gibbs. Thank you. I just wanted to make a couple of 
closing remarks. As we work on the Water Resources Development 
Act, as we have kindly referred to as WRDA, as this committee 
and the full committee with Chairman Shuster, as was referenced 
to earlier today, we have held a lot of listening sessions with 
the stakeholders and roundtables. And the common theme, and I 
think Ranking Member Bishop mentioned some of it, we know there 
needs to be more additional resources, but we also know there 
are some things we can do on the cost side. And one thing that 
has come up a lot is all the studies that you are required to 
do. And then study and study and study it some more.
    So, hopefully, I think this WRDA bill, it will be heavy on 
the policy side where we can hopefully do some reforms to lower 
the cost, to streamline the projects, to be a little more 
efficient, and improve the process so we do not have so many 
cost delays. Because when you have delays, it adds to the cost, 
as we all know. And also things that we can do, working with 
local sponsors, how we can do it better.
    It just amazes me. I have had the mayor of the city of 
Miami, Florida, in my office here a few weeks ago, and they are 
ready to do their project down there. They are getting ready 
for the--the bigger ships coming through the Panama Canal, but 
they cannot move forward without the authorization. So things 
we can do.
    Also, a frustration I think to a lot of us is we look at 
the President's budget, and I mentioned it in my opening 
statement, his export initiative, it is a great initiative; we 
can't wait initiative, great initiative. But we need to make 
sure that we are making those capital investments in those 
assets that due to the economic return, to grow our economy, 
keep us competitive in the global economy.
    And I know we have environment issues, and we have to 
address them, but when we are looking at more than four times 
on the construction budget for equal restoration projects and 
not going to grow those aging assets, that is concerning 
because if we fall behind--continue to fall behind and lose 
this battle with our foreign competition, there will be less 
dollars in the big picture for everything. And it is so 
important that we make these investments in our physical assets 
and our ports.
    So, I just want to leave it at that, and we look forward to 
working for you--working with you, and also give my thanks to 
all the people at the Army Corps for all the work that they do. 
Sometimes it is very technical work, and can be dangerous work 
at some times. But they are dedicated. I meet with the colonels 
from the districts and the other generals of the regions, and 
we all got the same thing we want to get done, make sure that 
we get the economy growing and create the jobs. And our 
maritime transportation system and flood control is where it 
needs to be, and that is what the American people expect.
    Thanks for being here today, Secretary and General. And 
this concludes this hearing of the subcommittee.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
